No.
In the
UNITED STATES SUPREME COURT

Anthony Pappas for Congress,
a political organization created
under Title 52 of the Federal Code
and Anthony Pappas, individually,
Petitioner,
-againstJoseph Lorintz, individually and as
Supreme Court Judge of the State of New York;
Henry Kruman; Maria Pappas; TD Bank, N.A.
and the State of New York,
Respondents.

PETITION FOR WRIT OF CERTIORARI
CERTIFICATE OF WORD COUNT

Certification
I declare under penalty of perjury pursuant to 28 USC 1746 that the foregoing Petition for Writ
of Certiorari complies with the 9,000 word limit set by the Rules of this Court with a computer
count of 4,781 words.
Executed this 12th day of March, 2021

Anthony Pappas

March 12, 2021

Anthony Pappas
2415 24th Street
Astoria, New York 11102-2827

Honorable Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington D.C. 20543

In re: Pappas v Lorintz et. al.
Petition for Writ of Certiorari
Dear Clerk of the Court:
Enclosed for filing, please find 40 copies of Petition for Writ of Certiorari, Appendix,
single unbound copy, filing fee of $300, proof of service and certificate of word
compliance in the above matter.
Thank you for your consideration.
Respectfully submitted,

Anthony Pappas

cc: New York State Attorney General
Henry Kruman
McGuire Woods LLP

becewed

m'6

